Report No. D-2011-109                  September 16, 2011




         American Recovery and Reinvestment Act
         "Heating, Ventilation, and Air Conditioning
                  Replacement" Project at
              Naval Support Activity Norfolk—
            Planning and Initial Execution Could
                   Have Been Improved
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
COAR                          Contracting Officer’s Authorized Representative
HVAC                          Heating, Ventilation, and Air Conditioning
JFSC                          Joint Forces Staff College
NAVFAC                        Naval Facilities Engineering Command
NSA                           Naval Support Activity
OMB                           Office of Management and Budget
PWD                           Public Works Department
QA                            Quality Assurance
QC                            Quality Control
QMAD                          Quantitative Methods and Analysis Division
                                   INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DR IVE
                               AR LI NGTON , VIRG INIA 22202-4704


                                                                              SEP 1 6 2011

MEMORANDUM FOR NAVAL INSPECTOR GENERAL
               COMMANDING OFFICER, NAVAL FACILITIES
                 ENGINEERING COMMAND MID-ATLANTIC

SUBJECT: American Recovery and Reinvestment Act "Heating, Ventilation, and Air
         Conditioning Replacement" Project at Naval Support Activity Norfolk-
         Planning and Initial Execution Could Have Been Improved
         (Report No. D-2011-109)

We are providing this report for review and comment. Public Works Department
officials lacked sufficient documentation supporting the heating, ventilation, and air
conditioning replacement project, valued at $19.25 million. In addition, contracting
officials did not identify contract oversight responsibilities in writing and did not develop
a quality assmance plan for monitoring the contractor's progress and performance.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Commanding Officer, Naval Facilities Engineering Command Mid-Atlantic did not
comment on the draft report. Therefore, we request the Commanding Officer comment
on ReconIDlendations 1,2, and 3 by October 17,2011.

If possible, send a .pdf file containing yom comments to audros@dodig.mil. Copies of
yom comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the ISignedl symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).




                                             (JJ~J~
                                              Alice F. Carey
                                              Assistant Inspector General
                                              Readiness, Operations, and Support
THIS PAGE INTENTIONALLY LEFT BLANK
Report No. D-2011-109 (Project No. D2009-D000LH-0320.000)                           September 16, 2011

               Results in Brief: American Recovery and
               Reinvestment Act “Heating, Ventilation, and
               Air Conditioning Replacement” Project at
               Naval Support Activity Norfolk—Planning
               and Initial Execution Could Have Been
               Improved
                                                         appropriately. However, NAVFAC Mid-
What We Did                                              Atlantic officials properly distributed Recovery
Our objective was to evaluate whether Naval              Act funds to the HVAC Replacement project,
Facilities Engineering Command (NAVFAC)                  and contracting officials properly tracked and
Mid-Atlantic officials appropriately used                reported required project information.
American Recovery and Reinvestment Act
(Recovery Act) funds by adequately planning,             What We Recommend
funding, initially executing, and tracking and           We recommend that the Commanding Officer,
reporting the $19.25 million “Heating,                   NAVFAC Mid-Atlantic, provide adequate
Ventilation, and Air Conditioning (HVAC)                 documentation to justify the need to replace the
Replacement” project located at Naval Support            HVAC system; require all project submissions
Activity, Norfolk, Virginia.                             to fully demonstrate the need for the projects;
                                                         and designate, in writing, contract oversight
What We Found                                            responsibilities for a qualified contracting
The HVAC Replacement project did not meet                officer’s authorized representative or equivalent
Recovery Act requirements. Specifically,                 official.
Public Works Department officials lacked
sufficient documentation supporting the HVAC             Management Comments
replacement project. Additionally, contracting           The Commanding Officer, NAVFAC Mid-
officials did not initially execute the HVAC             Atlantic, did not comment on the draft of this
Replacement project adequately. Contracting              report issued on August 4, 2011. We request
officials did not identify contract oversight            that the Commanding Officer provide comments
responsibilities in writing and did not develop a        by October 17, 2011. Please see the
quality assurance plan. These conditions                 recommendations table on the back of this page.
occurred because Public Works Department
officials believed the DD Form 1391,“FY 2010
Special Projects Program,” was the main
document needed to support the HVAC
replacement project; contracting officials stated
that having contract oversight responsibilities in
writing was not required and contracting
officials stated a quality assurance plan was not
needed for construction contracts and instead
relied on the contractor’s quality control plan.
                                                         Two-pipe HVAC system in building SC-1 of the Joint
As a result, DoD did not have reasonable                 Forces Staff College, Naval Support Activity, Norfolk,
assurance that Recovery Act funds were used              Virginia. Photo taken by DoD Office of Inspector General

                                                     i
Report No. D-2011-109 (Project No. D2009-D000LH-0320.000)    September 16, 2011



Recommendations Table
Management                     Recommendations              No Additional Comments
                               Requiring Comment            Required
Commanding Officer, Naval      1., 2., and 3.
Facilities Engineering
Command Mid-Atlantic


Please provide comments by October 17, 2011.




                                       ii
Table of Contents

Introduction                                                                  1

       Objective                                                              1
       Background                                                             1
       Recovery Act Requirements                                              1
       Heating, Ventilation, and Air Conditioning Replacement Project         2
       Review of Internal Controls                                            3

Finding. Heating, Ventilation, and Air Conditioning Replacement Project Did
         Not Meet Recovery Act Requirements                                   4

       Public Works Department Officials Lacked Supporting Documentation      4
       Contract Oversight Needs Improvement                                   5
       Distribution of Recovery Act Funds Was Timely                          7
       Contractor Reported Required Information                               7
       Conclusion                                                             7
       Recommendations                                                        8
       Management Comments Required                                           8

Appendices

       A. Scope and Methodology                                                9
             Use of Computer-Processed Data                                    9
             Use of Technical Assistance                                       9
             Prior Audit Coverage                                             10
       B. Recovery Act Criteria and Guidance                                  11
THIS PAGE INTENTIONALLY LEFT BLANK
Introduction
Objective
Our objective was to evaluate DoD’s implementation of Public Law 111-5, “American
Recovery and Reinvestment Act of 2009,” (Recovery Act), February 17, 2009.
Specifically, we determined whether Naval Facilities Engineering Command (NAVFAC)
Mid-Atlantic officials appropriately used Recovery Act funds by adequately planning,
funding, initially executing, and tracking and reporting the Heating, Ventilation, and Air
Conditioning (HVAC) Replacement project located in building SC-1 at the Joint Forces
Staff College (JFSC), Naval Support Activity (NSA), Norfolk, Virginia. See Appendix A
for a discussion of our scope and methodology.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent.

DoD received approximately $7.16 billion 1 in Recovery Act funds for projects that
support the Act’s purpose. In March 2009, DoD released expenditure plans for the
Recovery Act, which listed DoD projects that received Recovery Act funds. The
Department of the Navy received $1.17 billion in Recovery Act funds for Operations and
Maintenance; Military Construction; and Research, Development, Test, and Evaluation.
Of the $1.17 billion appropriated to the Department of the Navy, NAVFAC Headquarters
allocated approximately $19.43 million (Operations & Maintenance) to support
Project RM 211-08, HVAC Replacement in building SC-1, JFSC, at NSA, Norfolk,
Virginia.

Recovery Act Requirements
On April 3, 2009, the Office of Management and Budget (OMB) issued
Memorandum M-09-15, “Updated Implementing Guidance for the American Recovery
and Reinvestment Act of 2009,” to provide government-wide guidance and requirements
for the implementation of the Recovery Act. The guidance and requirements are intended
to meet accountability goals: (1) funds are awarded and distributed in a prompt, fair, and
reasonable manner; (2) the recipients and uses of all funds are transparent to the public,


1
 DoD originally received $7.4 billion; however, Public Law 111-226, Title III, “Rescissions,” rescinded
$260.5 million on August 10, 2010. The $7.16 billion does not include $4.6 billion for the U.S. Army
Corps of Engineers.

                                                    1
and the public benefits of these funds are reported clearly, accurately, and in a timely
manner; (3) funds are used for authorized purposes, and the potential for fraud, waste,
error, and abuse is mitigated; (4) projects funded under the Recovery Act avoid
unnecessary delays and cost overruns; and (5) program goals are achieved, including
specific program outcomes and improved results on broader economic indicators.

HVAC Replacement Project
JFSC uses Joint Chiefs of Staff educational instruction programs for educating military
and civilian leaders to plan and fight at the operational level of war. The Public Works
Department (PWD) NSA Norfolk, a component of NAVFAC Mid-Atlantic, develops the
requirements for projects at JFSC.

On March 31, 2009, PWD officials prepared a DD Form 1391, “FY 2010 Special
Projects Program,” for the HVAC Replacement project in building SC-1, valued at
$14.31 million. The DD Form 1391 stated that building SC-1 is four stories tall and
comprised 165,260 square feet of training, seminar, instructor, and administrative spaces.
PWD officials stated that over the last 46 years, only minor repairs and renovations had
occurred to sustain the building’s HVAC system. 2 The DD Form 1391 also stated that “a
majority of the heating, air conditioning distribution system consists of the original
installation and the current condition of the overall structure was rated as poor during the
last long-range maintenance inspection completed in 2007.” According to PWD
officials, HVAC components such as air handlers, compressors, and exhaust fans had
either failed or were failing; and asbestos removal was required. The HVAC
Replacement project is scheduled to be completed in March 2012.

On April 2, 2009, PWD officials prepared a DD Form 1391 for renovations to the
auditorium in building SC-1, “Renovate Auditorium SC-1” (Project RM 09-0653), valued
at $1.71 million. The DD Form 1391 stated the space in building SC-1 was in poor
physical condition, and the renovation work would correct building deficiencies. This
project proposed to repair or replace such items as walls, ceilings, doors, trim, and
carpeting; repaint interior space; abate asbestos floor tiles; and repair the HVAC system.
The “Impact If Not Provided” section of the DD Form 1391 stated “without this project,
space in building SC-1 will continue to deteriorate and require NSA Norfolk to use scarce
repair dollars.”

In an e-mail dated November 23, 2009, the Commander, Navy Installations Command,
authorized NAVFAC Mid-Atlantic to use Recovery Act funds for the auditorium
renovation project and include it as part of the HVAC Replacement project. Overall, the
HVAC Replacement project was allocated approximately $19.43 million in Recovery Act




2
 The HVAC system consists of chillers, boilers, cooling towers, chilled and hot water pumps, and a fire and
sprinkler system. Its components include piping, controls, exhaust fans, air handling, and fan coil units
located in the wings (A through E) of building SC-1.

                                                    2
funding for restoration and modernization, $19.25 million3 of which contracting officials
awarded to the contractor.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to establish a managers’ internal control
program to review, assess, and report the effectiveness of the controls. We identified
internal control weaknesses regarding inadequate project planning and contract
execution, as defined by DoD Instruction 5010.40. Specifically, PWD officials lacked
documentation supporting the need for the HVAC Replacement project, and contracting
officials did not identify contract oversight responsibilities in writing or develop a quality
assurance plan for monitoring the contractor’s progress and performance. We describe
these weaknesses in our report finding. We will provide a copy of the report to the senior
official responsible for internal controls at NAVFAC Mid-Atlantic.




3
    NAVFAC Mid-Atlantic officials stated the remaining $.17 million was used for in-house labor costs.

                                                      3
Finding. HVAC Replacement Project Did Not
Meet Recovery Act Requirements
PWD officials lacked sufficient documentation supporting the need for the HVAC
Replacement project, 4 valued at $19.25 million. In addition, contracting officials did not
initially execute the HVAC Replacement project adequately. Contracting officials did
not identify contract oversight responsibilities in writing and did not develop a quality
assurance plan (QA) for monitoring the contractor’s progress and performance. These
conditions occurred because:
    •   PWD officials believed the DD Form 1391 was the main document needed to
        support the HVAC Replacement project;

    •   contracting officials stated that having contract oversight responsibilities in
        writing was not required for construction contracts, such as the contract for the
        HVAC Replacement project; and

    •   contracting officials stated a QA plan was not needed for construction contracts
        and instead relied on the contractor’s quality control (QC) plan.
As a result, DoD did not have reasonable assurance that Recovery Act funds were
appropriately used. However, NAVFAC Mid-Atlantic officials properly distributed
Recovery Act funds to the project, and contracting officials ensured that the contractor
reported information required by the Recovery Act.

PWD Officials Lacked Supporting Documentation
PWD officials lacked sufficient supporting documentation for substantiating the use of
$19.25 million in Recovery Act funds for the HVAC replacement project. Naval
Instruction 11010.20G, “Facilities Projects Instruction,” October 14, 2005, states that
project documentation is a critical first step in the planning process; and that supporting
documentation is required to fully communicate the location, scope, complexity, cost,
and urgency of the project. Also, documentation provides a record of actions taken to
address a particular facilities requirement and how those actions were funded.

HVAC Replacement. PWD officials did not have documentation, such as
maintenance records, repair history, or documentation of any ongoing deterioration to
substantiate the need to replace the HVAC system. On March 31, 2009, PWD officials
prepared a DD Form 1391 identifying the need to replace the HVAC system and related
components, valued at $14.31 million. Although PWD officials cited the history of prior
repairs, the age of the system, and equipment failures previously identified by
experienced personnel as the basis for developing the DD Form 1391, they did not have
sufficient documentation to support these conditions. On the DD Form 1391, PWD
officials stated that, in 2007, they conducted a long-range maintenance inspection of


4
 In November 2009, the Commander, Navy Installations Command authorized the auditorium renovation
project as part of the HVAC Replacement project.

                                                 4
building SC-1, including the HVAC system. PWD officials informed us that this long-
range maintenance inspection was actually a walkthrough they completed of building
SC-1. However, they provided no documentation on their findings from the
walkthrough. PWD officials stated that the age (46 years) of the HVAC system was the
main reason for replacing it, which was documented in the DD Form 1391. They stated
that because the DD Form 1391 is the main document used to support projects, they
deemed the DD Form 1391 sufficient.

Auditorium Renovation. PWD officials did not have documentation to
substantiate the need for the auditorium renovation. On April 2, 2009, PWD officials
prepared a DD Form 1391 to renovate the auditorium in building SC-1. On the
DD Form 1391, PWD officials stated renovations planned included repair/replace of
walls, ceilings, doors, trim, lights, and floor covering for the project. They also stated the
space in building SC-1 is currently in poor physical condition and without this project,
space in building SC-1 will continue to deteriorate. Although PWD officials cited the
condition of the building as poor, they did not have documentation to support the
auditorium’s condition. PWD officials later provided four photographs of the
auditorium; however, these photographs did not demonstrate the extent of work needed
for the cost of the project. PWD officials believed that the DD Form 1391 was sufficient
because it is the main document used to substantiate the need for projects. However,
additional documentation was needed, such as maintenance records and repair history, to
justify the need to renovate the auditorium.

PWD officials should fully document the need for projects. Fully documenting the need
for the HVAC Replacement project will enable PWD officials to support the requirement
for the use of Recovery Act funds.

Contract Oversight Needs Improvement
Contracting officials did not initially execute the HVAC Replacement project adequately.
Specifically, the contracting officer did not identify contract oversight responsibilities for
the contracting officer’s authorized representative (COAR) in writing or develop a QA
                            plan for monitoring the contractor’s progress and
  Contracting officials     performance. OMB Memorandum M-09-15 states that
     did not initially      agencies must provide for appropriate oversight of contracts to
    execute the HVAC        ensure outcomes that are consistent with and measurable
  Replacement project       against agency plans and goals under the Recovery Act. It
       adequately.          also states that it is critical that agencies evaluate their
                            workforce needs so that they are able to appoint qualified
contracting officers and contracting officer’s technical representatives with certification
levels appropriate to the complexity and risk of Recovery Act projects.

Contract Oversight Responsibilities Not Identified In Writing. In a
September 4, 2009, appointment letter, the NAVFAC Mid-Atlantic Acquisition Director
appointed a COAR for construction contracts, stating that the COAR’s authority was
limited to in-scope construction modifications not to exceed $100,000. The COAR’s


                                              5
responsibilities included developing budget estimates, developing and issuing requests
for proposal, receiving and analyzing contractor’s proposals, and building and executing
modifications. Although contracting officials believed the oversight responsibilities in an
existing COAR’s appointment letter were sufficient, the appointment letter did not
specify contract oversight responsibilities for the HVAC Replacement project.
Contracting officials stated that having contract oversight responsibilities in writing was
not required for construction contracts. Contracting officials should clearly specify
oversight responsibilities in appointment letters to ensure that performance, cost, and
schedule goals are met.

No Quality Assurance Plan. Contracting officials did not develop a QA plan
for overseeing the HVAC Replacement project. Instead, the COAR relied on the
contractor’s QC plan to provide oversight. According to the NAVFAC Engineering and
Construction Bulletin, “Capital Improvements—Prioritizing Construction QA Using the
                           Four Categories of Work,” October 17, 2006, QA is defined as
   Contracting officials   the system by which the Government verifies that the
  did not develop a QA     contractor’s system of quality control is working effectively
   plan for overseeing     and construction work-in-place complies with the contract
        the HVAC           requirements. The Bulletin states that construction QA teams
  Replacement project.     will incorporate a formal process of documenting a risk
                           assessment approach towards QA and analyze the risk of not
performing QA responsibilities. Additionally, the Bulletin states QA responsibility will
be accomplished based on acceptable risk and that all construction QA personnel will
review and apply this assessment process for each contract. The COAR did not conduct a
risk assessment for the HVAC Replacement project to determine the level of QA
oversight needed.

A contracting official for the HVAC Replacement project stated the contracting office did
not develop a QA plan for each construction project. The COAR stated that completing a
risk assessment for the HVAC Replacement project was not necessary because it would
add no value beyond that of the appropriate level of QA oversight indicated by the
contractor personnel’s experiences. According to contracting officials, developing a QA
plan was not required because the contractor is required to develop a QC plan for each
project, which would suffice. Contracting officials stated the QC plan provided sufficient
controls to construct a quality facility. QA officials stated that the QA team uses various
QC elements to monitor contractor performance, such as attending preparatory meetings,
reviewing contractor submittals, attending biweekly QC meetings, and
collecting/analyzing the contractor’s performance through the QC daily reports. As
stated in the Bulletin, however, the QA team should document a risk assessment and
analyze the risk of not performing certain responsibilities. In response to a discussion
draft of this report, contracting officials developed a QA plan for the HVAC replacement
project.




                                            6
Distribution of Recovery Act Funds Was Timely
Department of the Navy officials distributed Recovery Act funds to the HVAC
Replacement project in a timely manner, and the funding documents properly identified
the project with a Recovery Act designation. Funding documents showed the
Department of the Navy allocated $19.43 million in Recovery Act funds to the
Commander, Navy Installations Command for the project. The Commander, Navy
Installations Command then distributed $19.42 million5 to NAVFAC Atlantic. On
November 23, 2009, NAVFAC Mid-Atlantic contracting officials awarded task
order 0004 (contract N40085-09-D-5033) in the amount of $13.86 million to the
contractor. Modifications later increased the project cost by an additional $5.39 million,
totaling $19.25 million in contract costs for the HVAC Replacement project. NAVFAC
Mid-Atlantic officials stated the remaining $.17 million was used for in-house labor
costs.

Contractor Reported Required Information
Contracting officials followed processes and procedures to ensure tracking and reporting
requirements were met. Contracting officials reported the contract award number, total
amount awarded, project status, jobs reported, description of jobs created, contractor
name and address, and project description quarterly to www.recovery.gov. The
contractor reported the project information required by the Recovery Act. The contractor
reported the number of jobs, a description of quarterly project activities, and the total
award dollar value for each of the task order awards to www.FederalReporting.gov as
required by Federal Acquisition Regulation clause 52.204-11, “American Recovery and
Reinvestment Act—Reporting Requirements.”

Conclusion
The HVAC Replacement project did not meet Recovery Act requirements. PWD
officials lacked sufficient documentation to support the $19.25 million cost of the project.
Contracting officials should identify contract oversight responsibilities for the COAR to
ensure the COAR conducts proper oversight. These actions will assist DoD in achieving
reasonable assurance that Recovery Act funds were appropriately used for the HVAC
Replacement project.




5
Of the $19.43 million distributed to the HVAC Replacement project, $6,172 would be recaptured by
Commander, Navy Installations Command ($19.43 million minus $6,172 equals $19.42 million).

                                                  7
Recommendations
We recommend that the Commanding Officer, Naval Facilities Engineering Command
Mid-Atlantic:

    1. Provide adequate documentation to support the project requirements for justifying
the need to replace the heating, ventilation, and air conditioning system.

    2. Require all DD Form 1391s submitted for renovation projects to fully demonstrate
the need for the project.

    3. Designate, in writing, contract oversight responsibilities for a qualified contracting
officer’s authorized representative or equivalent for the Heating, Ventilation, and Air
Conditioning Replacement project.

Management Comments Required
The Commanding Officer, Naval Facilities Engineering Command Mid-Atlantic, did not
comment on a draft of this report. We request that the Commanding Officer, Naval
Facilities Engineering Command Mid-Atlantic, provide comments on the final report.




                                              8
Appendix A. Scope and Methodology
We conducted this audit from August 2009 through August 2011. We conducted this
audit in accordance with generally accepted government auditing standards. These
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our conclusion
based on our audit objectives.

The overall objective was to evaluate DoD’s implementation of the Recovery Act. To
accomplish our objective, we audited the planning, funding, initial execution, and
tracking and reporting of the HVAC Replacement project located in building SC-1 at
JFSC. Specifically, we determined whether:

       •   the selected project was adequately planned to ensure the appropriate use of
           Recovery Act funds (Planning);
       •   funds were distributed in a prompt, fair, and reasonable manner (Funding);
       •   the contract awarded was transparent, competed, and contained required
           Recovery Act Federal Acquisition Regulation clauses (Initial Execution); and
       •   recipients’ use of funds was transparent to the public; and the benefits of the
           funds were clearly, accurately, and timely reported (Tracking and Reporting).

We interviewed key NAVFAC Mid-Atlantic officials at Naval Station Norfolk, NSA
Norfolk, and JFSC. We reviewed project requirements, economic analyses, funding
documents, cost documentation, criteria, a request for proposal, a pre-solicitation, a
proposed task order, amendments, a contract, and a task order and its modifications. We
toured the mechanical room where the HVAC system was located, the auditorium, and
various wings in building SC-1.

Use of Computer-Processed Data
We used computer-processed data obtained from the Excluded Parties List System,
Central Contractor Registration System, the Federal Business Opportunities Web site,
Navy Electronic Commerce Online, e-Projects, and RS Means. Our use of computer-
processed data did not materially affect our audit results. Therefore, we did not evaluate
the reliability of the computer-processed data we used.


Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, personnel from the Quantitative
Methods and Analysis Division (QMAD) of the DoD Office of Inspector General
analyzed all DoD agency-funded projects, locations, and contracting oversight
organizations to assess the risk of waste, fraud, and abuse associated with each. QMAD
personnel selected most audit projects and locations using a modified Delphi technique,
which allowed us to quantify the risk based on expert auditor judgment and other
quantitatively developed risk indicators. QMAD personnel used information collected
from all projects to update and improve the risk assessment model. QMAD personnel

                                             9
selected 83 projects with the highest risk rankings; auditors chose some additional
projects at the selected locations.

QMAD personnel did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by U.S. Army Corps of Engineers.

Prior Audit Coverage
The Government Accountability Office, the DoD Office of Inspector General, and the
Military Departments have issued reports and memoranda discussing DoD projects
funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                            10
Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance used during
our review:

   •   Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
       February 17, 2009

   •   OMB Memorandum for Chief Acquisition Officers, “The Federal Acquisition
       Certification for Contracting Officer Technical Representatives,”
       November 26, 2007

   •   OMB Memorandum M-09-15, “Updated Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009,” April 3, 2009

   •   Federal Acquisition Regulation, Subchapter B, “Competition and Acquisition
       Planning, Part 5, “Publicizing Contract Actions,” March 2005

   •   NAVFAC P-442, “Economic Analysis Handbook,” October 1993

   •   Office of the Chief of Naval Operations Naval Instruction 11010.20G, “Facilities
       Projects Instruction,” October 14, 2005

   •   NAVFAC Engineering & Construction Bulletin “Prioritizing Construction QA
       using the Four Categories of Work,” October 17, 2006




                                           11
